No. 19-638
IN THE

N.B.D., PETITIONER
v.
KENTUCKY CABINET FOR HEALTH
AND FAMILY SERVICES
On Petition for a Writ of Certiorari
to the Supreme Court of Kentucky

SUPPLEMENTAL BRIEF FOR PETITIONERS

Teresa Cunningham
CUNNINGHAM & ASSOC.
2600 Burlington Pike
Suite 340
Burlington, KY 41005

Tejinder Singh
Counsel of Record
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda MD, 20814
(202) 362-0636
tsingh@goldsteinrussell.com

TABLE OF CONTENTS
TABLE OF AUTHORITIES ....................................... ii
SUPPLEMENTAL BRIEF FOR PETITIONERS ....... 1
I.

There Is an Undeniable Split About Whether
Federal Law Requires State Courts to Make
Special Immigrant Juvenile Predicate
Findings. ............................................................... 1

II. Federal Law Obligates State Courts to Make
Findings on the SIJ Predicate Questions. ........... 4
CONCLUSION .......................................................... 12

ii
TABLE OF AUTHORITIES
Cases
Guardianship of Penate,
76 N.E.3d 268 (Mass. 2017) ..................................... 3
H.S.P. v. J.K.,
121 A3d 849 (N.J. 2015) .......................................... 4
In re J.J.X.C.,
734 S.E.2d 120 (Ga. Ct. App. 2012) ......................... 4
Romero v. Perez,
205 A.3d 903 (Md. 2019) .......................................... 3
Simbaina v. Bunay,
109 A.3d 191 (Md. Ct. Spec. App. 2015).............. 1, 2
Statutes
8 U.S.C. § 1101(a)(27)(J) ......................................... 1, 3
8 U.S.C. § 1101(a)(27)(J)(ii) ......................................... 9
8 U.S.C. § 1101(a)(27)(J)(iii)........................................ 3
Other Authorities
U.S. Citizenship & Immigration Servs., Policy
Manual 6.J.2 (May 21, 2020)................................... 9

SUPPLEMENTAL BRIEF FOR PETITIONERS
This brief responds to the amicus brief of the
United States, filed May 21, 2020. The government
does not dispute that the question presented is of surpassing importance to tens of thousands of immigrant
children, to the states, and to federal immigration policy (Pet. 21-24)—and it does not deny that this case is
an ideal vehicle to resolve the question (id. at 24-25).
Instead, the government believes that certiorari
should be denied because the split is unclear, and because the decision below was correct on the merits.
U.S. Br. 9-10. These arguments are unpersuasive.
I.

There Is an Undeniable Split About
Whether Federal Law Requires State
Courts to Make Special Immigrant
Juvenile Predicate Findings.

State courts of last resort disagree about whether
federal law, specifically 8 U.S.C. § 1101(a)(27)(J) and
its implementing regulation, require state courts to
make special immigrant juvenile (SIJ) predicate findings. As the petition explained, courts of last resort in
Maryland, Massachusetts, and New Jersey have
held—in conflict with the decision below and decisions
in three other states courts—that the answer is “yes,”
and intermediate appellate courts in at least six other
states agree. The government contends, however, that
it is not clear whether the courts requiring SIJ predicate findings rest their decisions on federal as opposed
to state law. U.S. Br. 10.
The clearest counterexample comes from Maryland. In Simbaina v. Bunay, 109 A.3d 191 (Md. Ct.
Spec. App. 2015), the Maryland Court of Special Appeals held that “[t]he federal [SIJ] statute directs the

2
circuit court to enter factual findings that are advisory
to a federal agency determination.” Id. at 197. The
court described this as a “federal directive to State
courts to make SIJ findings” and noted that “the SIJ
statute imposes a rather extraordinary duty on a State
court.” Id. at 197-98.
The court’s holding necessarily rested on federal
law because the court was concerned that if the Maryland legislature had directed the state’s courts to make
SIJ findings, that duty could have violated Article 8 of
the Declaration of Rights of the Maryland Constitution by requiring the courts to “perform a ‘nonjudicial
function.’” Simbaina, 109 A.3d at at 197. The court
avoided that State constitutional-law problem by holding that “because federal law imposes the duty to make
SIJ findings on a Maryland court, any claim of impermissible imposition of nonjudicial duties or of a State
separation of powers violation would be trumped by
the Supremacy Clause of the U.S. Constitution, Article
VI, and the similar federal supremacy obligation found
in Article 2 of our own Declaration of Rights.” Id. at
198 (emphasis added).
The government glosses over Simbaina, describing it as “a decision of the Maryland intermediate appellate court finding that a juvenile alien’s request for
SIJ findings had been adequate under Maryland’s jurisdictional rules and pleading standards.” U.S. Br. 20.
The government acknowledges, as it must, that Simbaina has been “cited with approval” by the Maryland
Court of Appeals. Ibid. But the government’s description elides Simbaina’s analysis about why the federal
mandate obviated the state separation-of-powers issue, as well as the fact that when the state’s highest
court cited Simbaina with approval, it stated that it

3
was “satisfied with [Simbaina’s separation of powers]
analysis.” Romero v. Perez, 205 A.3d 903, 907 n.10
(Md. 2019). Thus, Maryland’s court of last resort has
held that federal law requires SIJ findings.
The Supreme Judicial Court of Massachusetts, in
Guardianship of Penate, 76 N.E.3d 268 (Mass. 2017),
said this about state courts:
The State court’s role is solely to make the
special findings of fact necessary to the
USCIS’s legal determination of the immigrant child’s entitlement to SIJ status. 8
U.S.C. § 1101(a)(27)(J)(iii). Congress delegated this task to State courts because it recognized the distinct expertise State courts
possess in the area of child welfare and abuse,
which makes them best equipped to shoulder
the responsibility to perform a best interest
analysis and to make factual determinations
about child welfare for purposes of SIJ eligibility.
Because this fact-finding role is integral to
the SIJ process, the Probate and Family
Court judge may not decline to make special
findings if requested by an immigrant child
under § 1101(a)(27)(J).
Id. at 274-75 (quotation marks and citation omitted).
There are four unambiguous signals that the obligation to make SIJ predicate findings is federal in nature. First, the court cited the federal statute when describing the state court’s role. Second, the court stated
that Congress—not the state legislature—delegated
this role to the state court. Third, the reason states are
required to make the findings is because the findings

4
are integral to the federal SIJ process—and not any
state policy. Finally, there is no citation to any state
law anywhere in the description of state courts’ obligation.
The New Jersey Supreme Court’s decision in
H.S.P. v. J.K., 121 A3d 849 (N.J. 2015), is similar. After conducting a lengthy review of the history of the
SIJ statute, the court made it clear that the reason
state courts must make the findings is to fulfill “the
role Congress envisioned for the juvenile courts of the
fifty states.” Id. at 860. No parallel state law obligation
to make findings was mentioned.
The government also disputes the salience of the
decisions of six intermediate appellate courts that
have required state courts to make SIJ findings. These
decisions were discussed in the petition (at 14-16), and
there is no need to rehash them in detail here. Suffice
it to say that they contain clear indicia that federal law
obligates state courts to issue SIJ predicate findings.
See, e.g., In re J.J.X.C., 734 S.E.2d 120, 124 (Ga. Ct.
App. 2012) (holding that state juvenile courts are
“charged with addressing an issue relevant only to federal immigration law”) (emphasis added).
II.

Federal Law Obligates State Courts to
Make Findings on the SIJ Predicate
Questions.

Petitioners’ rule—which is that state juvenile
courts of competent jurisdiction must consider requests for SIJ findings on the merits and make the
findings in every case in which they are warranted—
aligns perfectly with Congress’s objectives in creating
the SIJ program. Under petitioners’ rule, every deserving child has a fair chance to apply for SIJ status,

5
no matter where they live. On the other hand, no undeserving person will receive SIJ status: children who
are not entitled to the predicate findings will not get
them on the merits, and children who are otherwise
ineligible will be denied by USCIS. Our rule accordingly helps everybody Congress sought to help, and nobody that Congress did not seek to help.
The government’s rule is quite different. The government argues that a juvenile court may decline to
make SIJ predicate findings for “reasons that are permitted by state law.” U.S. Br. 10. Under this rule, a
state court can refuse to make SIJ predicate findings
for reasons that have nothing to do with Congress’s objectives. And under this rule, a significant number of
children who factually qualify for SIJ status—and who
are the intended beneficiaries of the federal SIJ program—will be unable to even apply for it because juvenile courts in states like Kentucky will simply refuse
to make the predicate findings.
Actually, the picture under the government’s rule
is even more bleak because states can also presumably
enact laws limiting their courts’ ability to make SIJ
findings. For example, any state could codify the Kentucky Supreme Court’s holding in this case, and apply
that standard to limit the availability of SIJ findings.
To illustrate why that is a bad rule, we highlight
two significant flaws in the Kentucky Supreme Court’s
opinion. First, the decision is internally incoherent.
The Kentucky courts found that it would be in petitioner Nelida’s best interests to remain in Kentucky,
but refused to make the findings that would protect
her from deportation out of Kentucky. Pet. App. 11a12a, 44a. As the dissent pointed out, this makes no
sense because deportation would be “directly contrary

6
to the trial court’s finding that placement of the child
in the care of an individual or entity within the U.S. is
in the child’s best interest.” Pet. App. 19a (Minton,
C.J., dissenting). The majority did not even address
this argument in its opinion—probably because there
is no reasonable answer.
Second, the decision below evidences a misunderstanding of, or perhaps hostility to, federal law. The
court stated that evidence about whether Nelida
should be returned to Guatemala should be presented
“not in any state court, but in federal immigration
court.” Pet. App. 12a. That is wrong because under the
SIJ statute, only state tribunals can make SIJ predicate findings; federal immigration courts cannot. The
court further stated that it had “grave concerns about
the use of the juvenile process . . . to circumvent federal immigration law.” Ibid. But circumvention is a
question for the federal government, as the government itself argued in Penate, supra. See Brief for the
United States, 2016 WL 7661052, at *15-16 (Dec. 28,
2016) (arguing that USCIS “alone is charged with determining whether the INA’s requirements for SIJ status are met or if the alien minor is seeking a state
court order solely to secure an immigration benefit”).
Thus, the Kentucky family court, and then the state
supreme court, refused to perform the function Congress contemplated for a state court, and also encroached on the federal government’s role in the SIJ
process and undermined Nelida’s ability to avail herself of that process.
To be sure, the correctness of the Kentucky Supreme Court’s decision as a matter of state law is not
before this Court. But what is before this Court is
whether Congress intended to allow states to adopt

7
such flawed reasoning to deny SIJ applicants a fair
chance at receiving a federal humanitarian benefit.
The government does not even attempt to explain
what could have motivated Congress to take that approach—and we cannot conceive of a rationale for it.
Nevertheless, the government argues that Congress merely intended to empower state courts to
make SIJ predicate findings—not to require them to
do so. In support of that counterintuitive position, the
government makes a few arguments—none of which
are persuasive.
First, it argues that as a textual matter, the statute does not expressly impose a federal mandate on
state courts, but instead speaks in the passive voice
about immigrants who have obtained the requisite
findings. U.S. Br. 10-11. This was addressed in the petition (at 28) and the reply (at 3-4). While Congress
could have been more explicit in issuing a command,
the necessary implication of the requirements Congress imposed is that state courts must adjudicate the
SIJ predicate question on the merits. That is so because there is no other way for a child to obtain the
requisite findings, and so there is no way for the statute to achieve its purpose unless state courts are required to issue them in appropriate cases.
Second, the government argues that the SIJ statute contemplates that states will apply their own substantive law to determine whether reunification with
a parent is not viable due to abuse, neglect, abandonment or a similar basis “found under State law.” U.S.
Br. 10 (quotation marks omitted). The government
leaps from this premise to the conclusion that Congress also intended to allow states to avoid deciding
SIJ questions at all. This is a stretch. First, the phrase

8
“or a similar basis found under State law” is meant to
broaden the scope of permissible findings that an immigrant child can seek beyond the categories of abuse,
neglect, and abandonment—not to allow states to narrow the inquiry. Second, even accepting the premise
that the states will apply their own substantive law of
abuse, neglect, and abandonment when making this
predicate finding, it does not follow that states have
carte blanche to refuse to make the finding even when
that state-law substantive standard is met. The better
reading is the opposite, i.e., that when, under state
law, an immigrant child can show that she has been
abused, neglected, abandoned, or similar, she will receive the requisite finding from a state court.
The government argues next that the legislative
history supports its interpretation by stating that the
SIJ program was intended to benefit children who are
actually abused, neglected, or abandoned—and not
merely those who initiated dependency proceedings in
order to obtain an immigration benefit. U.S. Br. 11-12.
This argument ought to go the other way because the
government’s rule would permit state courts to decline
to make SIJ findings even for children who are genuinely abused, neglected, or abandoned if, for example,
the state court determines that it need not consider
the viability of parental reunification to adjudicate
custody, or that it need not consider the virtues of a
custodial arrangement in the child’s country of nationality. Petitioners’ rule is the only one that ensures that
every one of Congress’s intended beneficiaries has a
fair chance to apply for SIJ status. Moreover, our rule
does not permit anybody to exploit the process because
USCIS retains the ability to deny petitions for status
if it determines that they are not bona fide.

9
The government next attempts to draw an analogy between SIJ predicate findings and other statelaw determinations that have immigration consequences. For example, it observes that marriage, divorce, separation, and adoption are all determined under state law, but carry immigration consequences.
U.S. Br. 13. But this is irrelevant to the SIJ program,
which does not merely attach immigration consequences to an existing state-court order, but instead
requires a child who wishes to seek the status to obtain
specific findings—and these findings have no purpose
other than supporting an application for SIJ status.
Most clearly, the third finding, “that it would not be in
the alien’s best interest to be returned to the alien’s or
parent’s previous country of nationality or country of
last habitual residence,” 8 U.S.C. § 1101(a)(27)(J)(ii)—
is not the sort of finding that a state juvenile court ordinarily would make because state courts typically adjudicate whether it makes sense for a child to reside in
a particular home, not an entire country. *
The government also compares SIJ status to the
U visa program, which grants status to individuals
who assist law enforcement investigations of certain
crimes. U.S. Br. 14. Under this program, the immigration benefit is only available if a responsible law enforcement official certifies, in his discretion, that the
alien has been helpful, is being helpful, or is likely to
USCIS has taken the position that a state court does not make
the required finding when, as here, it determines that “a particular custodial placement is the best alternative available to the
petitioner in the United States.” USCIS, Policy Manual 6.J.2
(May 21, 2020). That is apparently insufficient because it does
not rule out the possibility that another arrangement in another
country (that the court did not even consider) might be better.
*

10
be helpful in a criminal investigation. The government
argues that SIJ status works the same way. But there
is no evidence that Congress intended for the two programs to confer similar discretion, and there are good
reasons for the U visa program to involve greater discretion than the SIJ program. Specifically, the U visa
is designed, in significant part, to assist law enforcement, and so it makes sense that law enforcement officials have broad discretion to decide whether an alien has been helpful to an investigation. The SIJ program, by contrast, is not designed to assist states or
state courts; it is designed solely to help children. Accordingly, there is no reason for state courts to have
discretion to deny SIJ findings to children who qualify
for them on the merits.
The government also argues that the Kentucky
Supreme Court’s decision does not create an obstacle
to Congress’s objectives. See U.S. Br. 16-17. In support, the government argues that in the last three fiscal years, USCIS has granted 3585 petitions from applicants who live in the four states in which courts are
not required to make SIJ findings. This opaque statistic is unhelpful. It does not reveal whether the SIJ
predicate findings were rendered before or after the judicial decisions holding that such findings are optional. It does not reveal the number of children who
would have been eligible for SIJ status who were unable to apply because courts refused to issue predicate
findings. And it does not allow us to compare the number of applications granted in these states to the number granted in states that treat predicate findings as
mandatory.

11
To the extent the government is using this figure
simply to illustrate that the SIJ program has not collapsed altogether in these four states, its argument
misses the point in two ways. First, we are not saying
that the government’s rule will actually cause the SIJ
program to implode. We are saying that any interpretation of the SIJ statute that incorporates such a potential self-destruct mechanism cannot be correct. Second, to the extent outcomes are relevant, we do not
have to show that nobody from these states is receiving SIJ status in order to establish that state-court intransigence poses an obstacle to Congress’s objectives.
It is enough to show that some deserving children are
being denied a chance to apply based on the whims of
the juvenile court judge to whom their case is assigned, as opposed to the merits of their situation.
That level of arbitrariness is fundamentally incompatible with Congress’s objective of creating a humanitarian benefit for abused, neglected, and abandoned children, and is therefore preempted. This very case
proves that this problem is not hypothetical. Nelida
should have received the predicate findings, but the
Kentucky courts simply refused to issue them.
None of the government’s other merits arguments
are persuasive. At a minimum, none justify denying
certiorari in light of the clear split among state courts
of last resort about an important question of federal
law.

12
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
Teresa Cunningham
CUNNINGHAM & ASSOC.
2600 Burlington Pike
Suite 340
Burlington, KY 41005

June 9, 2020

Tejinder Singh
Counsel of Record
GOLDSTEIN & RUSSELL, P.C.
7475 Wisconsin Ave.
Suite 850
Bethesda MD, 20814
(202) 362-0636
tsingh@goldsteinrussell.com

